No. 19-511
IN THE

~upreme <!Court of tbe mlniteb ~tateS'
FACEB00K, INC.,
v.

NOAH DUGUID, individually and on behalf of
himself and all others similarly situated,

Petitioner,

Respondent,

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Brief for

Amici Curiae Chamber Of Commerce of the United States of America, Business
Roundtable, ACA International, American Bankers Association, American Financial
Services Association, Consumer Bankers Association, Edison Electric Institute,
Insights Association, Internet Association, Mortgage Bankers Association, and
National Association of Federally-Insured Credit Unions, in Support of Petitioner in

Facebook, Inc. v. Duguid, No. 19-511, complies with the word limitations, as it
contains 7,957 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: September 11, 2020

